APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT
___________
No. 18-11581
Summary Calendar
___________

United States Court of Appeals
Fifth Circuit

FILED
June 20, 2019
Lyle W. Cayce
Clerk

LAMONT DEJUAN HIGGS,

Petitioner-Appellant
v.
WARDEN WILSON,
Respondent-Appellee
___________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-2537
___________________________
Before SMITH, HIGGINSON, and DUNCAN, Circuit
Judges.

2a
PER CURIAM:*
Lamont Dejuan Higgs, federal prisoner # 47498177, moves for leave to proceed in forma pauperis
(IFP) on appeal from the dismissal of his 28 U.S.C.
§ 2241 petition challenging his guilty plea convictions
and sentences for being a felon in possession of a firearm and possession with intent to distribute a controlled substance. By moving to proceed IFP on appeal, Higgs challenges the district court’s certification
that his appeal is not taken in good faith. See Baugh
v. Taylor, 117 F.3d 197, 202 (5th Cir. 1997). Our inquiry into an appellant’s good faith “is limited to
whether the appeal involves legal points arguable on
their merits (and therefore not frivolous).” Howard v.
King, 707 F.2d 215, 220 (5th Cir. 1983) (internal quotation marks and citation omitted).
A petitioner can attack the validity of his convictions and sentences in a § 2241 petition only if he can
meet the requirements of the savings clause of 28
U.S.C. § 2255. See § 2255(e); Jeffers v. Chandler, 253
F.3d 827, 830 (5th Cir. 2001); Reyes-Requena v. United
States, 243 F.3d 893, 904 (5th Cir. 2001).
Higgs’s argument that § 2255 is inadequate to test
the legality of his detention because his § 2255 motion
was denied as time barred is unavailing, as we have
held that relief under § 2255 is not inadequate or ineffective merely because the petitioner has filed a
prior unsuccessful § 2255 motion. See Pack v. Yusuff,
218 F.3d 448, 452-53 (5th Cir. 2000). His challenge to

*

Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

3a
the validity of a sentencing enhancement does not satisfy the savings clause of § 2255. See, e.g., In re Bradford, 660 F.3d 226, 230 (5th Cir. 2011). While he relies
on United States v. Wheeler, 886 F.3d 415 (4th Cir.
2018), cert. denied, 139 S.Ct. 1318 (2019), to argue
that fundamental sentencing errors satisfy the savings clause, Wheeler is not binding in this circuit and
does not allow us to overturn our precedent. See
United States v. Traxler, 674 F.3d 486, 489 (5th Cir.
2014). His reliance on Persaud v. United States, 134
S.Ct. 1023 (2014), is also misplaced, as Persaud was
not a substantive decision and did not overrule our
precedent regarding the availability of § 2241 relief.
See Robinson v. United States, 812 F.3d 476, 477 (5th
Cir. 2016). Finally, his contention that his counsel
rendered ineffective assistance does not demonstrate
that he was convicted of a nonexistent offense and
therefore does not satisfy the requirements of the savings clause. See § 2255(e); Jeffers, 253 F.3d at 831;
Reyes-Requena, 243 F.3d at 903-04.
Because Higgs has failed to raise a nonfrivolous
issue for appeal, his motion to proceed IFP on appeal
is DENIED, and the appeal is DISMISSED as frivolous. See Baugh, 117 F.3d at 202 & n.24; 5TH CIR.
R. 42.2.

4a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
LAMONT DEJUAN
HIGGS,
Petitioner,
vs.
WARDEN WILSON,
Respondent.

)
)
)
)
No. 3:18-CV-2537-M
)
)
)
)

ORDER OF THE COURT ON
RECOMMENDATION REGARDING REQUEST
TO PROCEED IN FORMA PAUPERIS ON
APPEAL
Considering the record in this case and the recommendation of the Magistrate Judge, the Court hereby
finds and orders:
( ) The request for leave to proceed in forma pauperis on appeal is GRANTED.
(X) The application for leave to proceed in forma
pauperis on appeal is DENIED because the
Court certifies pursuant to 28 U.S.C.
§ 1915(a)(3) that the appeal is not taken in
good faith. The appeal presents no legal
points of arguable merit and is therefore frivolous.

5a
(X) Although this court has certified that the
appeal is not taken in good faith under 28
U.S. C. § 1915(a)(3) and Fed. R. App. P.
24(a)(3), the plaintiff may challenge this
finding by filing a separate motion to proceed in forma pauperis on appeal with the
Clerk of Court, U.S. Court of Appeals for
the Fifth Circuit, within 30 days of this
order.
DATE: December 19, 2018.

/s/ Barbara M. G. Lynn__
BARBARA M. G. LYNN
CHIEF JUDGE

6a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
LAMONT DEJUAN
HIGGS,
Petitioner,
vs.
WARDEN WILSON,
Respondent.

)
)
)
)
)
)
)
)
)

No. 3:18-CV2537-M (BH)
Referred to
U.S. Magistrate
Judge

RECOMMENDATION REGARDING REQUEST
TO PROCEED IN FORMA PAUPERIS ON
APPEAL
By Amended Miscellaneous Order No. 6 (adopted
by Special Order No. 2-59 on May 5, 2005), before the
Court is the petitioner’s Application to Proceed in District Court Without Prepaying Fees or Costs seeking to
proceed in forma pauperis on appeal, received December 7, 2018 (doc. 14).
(X) The request for leave to proceed in forma pauperis on appeal should be DENIED because
the Court should certify under Fed. R. App. P.
24(a)(3) and 28 U.S.C. § 1915(a)(3) that the
appeal is not taken in good faith, and that it
presents no legal points of arguable merit and
is frivolous.

7a
If the Court denies the request to proceed in forma pauperis on appeal, the
movant may challenge the denial by filing a separate motion to proceed in
forma pauperis on appeal with the Clerk
of Court, U.S. Court of Appeals for the
Fifth Circuit, within thirty days after
service of the notice required by Fed. R.
App. P. 24(a)(4). See Fed. R. App. P.
24(a)(5).
SIGNED this 17th day of December, 2018.

__/s/ Irma Carrillo Ramirez________________
IRMA CARRILLO RAMIREZ
UNITED STATES MAGISTRATE JUDGE

8a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
LAMONT DEJUAN
HIGGS,
Petitioner,
vs.
WARDEN WILSON,
Respondent.

)
)
) No. 3:18-CV) 2537-M
)
)
)

JUDGMENT
This action came on for consideration by the
Court, and the issues having been duly considered and
a decision duly rendered,
It is ORDERED, ADJUDGED and DECREED
that:
1. The petition for habeas corpus filed under 28
U.S.C. § 2241 is DENIED with prejudice.
2. The Clerk shall transmit a true copy of this
Judgment and the Order Accepting the Amended
Findings and Recommendation of the United States
Magistrate Judge to all parties.

9a
SIGNED this 26th day of November, 2018.

_/s/ Barbara M. G. Lynn_
BARBARA M. G. LYNN
CHIEF JUDGE

10a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
LAMONT DEJUAN
HIGGS,
Petitioner,
vs.
WARDEN WILSON,
Respondent.

)
)
)
)
)
)
)
)

No. 3:18-CV2537-M (BH)
Referred to
U.S. Magistrate
Judge

AMENDED FINDINGS, CONCLUSIONS, AND
RECOMMENDATION
By Special Order 3-251, this habeas case has been
referred for findings, conclusions, and recommendation. After consideration of the petitioner’s objections
to the recommended dismissal of his amended § 2241
petition, received on October 29, 2018 (doc. 8), and
based on the relevant findings and applicable law, the
amended § 2241 petition should be DENIED.
I.

BACKGROUND

Lamont Dejuan Higgs (Petitioner), a prisoner incarcerated in the Federal Correctional Institution in
Fort Worth, Texas, (FCI-Fort Worth), challenges his
conviction and sentence under 28 U.S.C. § 2241. The
respondent is Warden Wilson of FCI-Fort Worth.

11a
Petitioner was convicted of being a felon in possession of a firearm in violation of 18 U.S.C. §§ 922(g)(1),
924(a)(2) (count one), and possession with intent to
distribute a controlled substance in violation of 21
U.S.C. § 841(a)(1), (b)(1)(d) (count two). On June 19,
2014, he was sentenced to 120 months on count one
and 31 months on count two, to run consecutively, for
a total sentence of 151 months of imprisonment. (See
No. 3:13-CR-461-M, doc. 35.) He did not appeal. Petitioner’s motion to vacate under 28 U.S.C. § 2255 was
denied as barred by the statute of limitations. See
United States v. Higgs, No. 3:16-CV-1759-M (N.D.
Tex. Nov. 30, 2017).
Petitioner’s § 2241 petition relies on the savings
clause of 28 U.S.C. § 2255(e) and raises the following
grounds:
(1) A prior conviction for possession with intent
to deliver a controlled substance should not have
been used as a predicate for a sentence enhancement;
(2) Counsel was ineffective for:
(a) telling Petitioner that if he pleaded
guilty, the sentence would not exceed 10
years;
(b) failing to argue that the sentences
should have been concurrent.
(See docs. 6 at 5; 6-1 at 2-4.)

12a
II. SAVINGS CLAUSE
Generally, a writ of habeas corpus under 28
U.S.C. § 2241 is the appropriate vehicle to challenge
the manner in which a sentence is carried out, and
claims of alleged errors that occurred at sentencing
are properly raised in a motion under 28 U.S.C. §
2255. See Pack v. Yusuff, 218 F.3d 448, 451 (5th Cir.
2000) (citing Padilla v. United States, 416 F.3d 424,
426 (5th Cir. 2005)). A petitioner may challenge the
legality of his detention in a § 2241 petition under the
“savings clause” of § 2255, however. Padilla, 416 F.3d
at 426. It provides:
An application for a writ of habeas corpus in
behalf of a prisoner who is authorized to apply
for relief by motion pursuant to this section,
shall not be entertained if it appears that the
applicant has failed to apply for relief, by motion, to the court which sentenced him, or that
such court has denied him relief, unless it also
appears that the remedy by motion is inadequate or ineffective to test the legality of his
detention.
28 U.S.C. § 2255(e). To show that a § 2255 motion is
either ineffective or inadequate to test the legality of
his detention, a petitioner must demonstrate that:
(1) his claim is based on a Supreme Court decision
that is retroactively applicable on collateral review
and that establishes that he may have been convicted
of a nonexistent offense, and (2) his claim would have
been foreclosed by existing circuit precedent had he
raised it at trial, on direct appeal, or in a prior § 2255
petition. Reyes–Requena v. United States, 243 F.3d
893, 904 (5th Cir. 2001).

13a
Here, Petitioner challenges the application of a career-offender sentencing guideline to enhance his sentence and alleges ineffective assistance of counsel. In
his objections, he again claims that he is innocent of
the sentence because it should not have been enhanced under a career-offender sentencing guideline,
and that he may challenge its validity under the savings clause. (See doc. 8 at 2-3.)1 The savings clause
does not apply to a claim of innocence of a career-offender sentencing enhancement, however. See Lopez
v. Chandler, 733 F. App’x 202 (5th Cir. 2018). In addition, a claim of ineffective assistance of counsel that
does not involve a conviction for a nonexistent offense
may also not be raised under the savings clause. See
Moorehead v. Chandler, 540 F. App’x 458, 459 (5th
Cir. 2013). Petitioner has not shown that he was convicted of a nonexistent offense, so his claims do not fall
within the savings clause of § 2255(e).
Petitioner also argues in his objections that a §
2255 motion to vacate is inadequate and ineffective to
test the legality of his detention because his § 2255
motion was denied as barred by the statute of limitations. (See doc. 8 at 1.) A petitioner may not use the
savings clause to avoid procedural hurdles presented
1

Petitioner relies on Murray v. Carrier, 477 U.S. 478 (1986);
Smith v. Murray, 477 U.S. 527 (1986); Dugger v. Adams, 489 U.S.
401 (1989); and United States v. Hinkle, 832 F.3d 569 (5th Cir.
2016). At issue in Carrier, Smith, and Adams was whether a
state procedural default should be excused in a challenge under
28 U.S.C. § 2254 to a state conviction; the cases did not involve
the savings clause. See Adams, 489 U.S. at 404-06; Carrier, 477
U.S. at 484-85; Smith, 477 U.S. at 532-34. In Hinkle, a § 2255
case, the Fifth Circuit held that a Texas conviction for delivery
of a controlled substance was not a basis for an enhancement under the career-offender sentencing guideline. Hinkle, 832 F.3d at
574- 77. It likewise did not involve the savings clause.

14a
under § 2255, such as the statute of limitations or the
restriction on filing second or successive motions to
vacate. See Pack, 218 F.3d at 452-53 (holding that
neither a limitations bar nor successiveness make §
2255 inadequate or ineffective). Petitioner’s § 2255
motion raised claims about the sentencing enhancement and ineffective assistance of counsel. The fact
that it was denied as barred by the statute of limitations does not render the remedy under § 2255 inadequate or ineffective. See Pack, 218 F.3d at 452-53. He
is not entitled to relief under the savings clause of §
2255(e).
III. RECOMMENDATION
The amended petition for habeas corpus relief under 28 U.S.C. § 2241 should be DENIED with prejudice.2
SIGNED this 2nd day of November, 2018.
___/s/ Irma Carrillo Ramirez_______________
IRMA CARRILLO RAMIREZ
UNITED STATES MAGISTRATE JUDGE

2

Since Petitioner previously filed a § 2255 motion challenging his conviction and sentence, and he has not shown that the
Fifth Circuit has authorized a successive § 2255 motion under 28
U.S.C. § 2244(b)(3)(C), his § 2241 petition should not be construed as a § 2255 motion.

15a
INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
A copy of these findings, conclusions and recommendation shall be served on all parties in the manner provided by law. Any party who objects to any
part of these findings, conclusions and recommendation must file specific written objections within 14
days after being served with a copy. See 28 U.S.C. §
636(b)(1); Fed. R. Civ. P. 72(b). In order to be specific,
an objection must identify the specific finding or recommendation to which objection is made, state the basis for the objection, and specify the place in the magistrate judge’s findings, conclusions and recommendation where the disputed determination is found. An
objection that merely incorporates by reference or refers to the briefing before the magistrate judge is not
specific. Failure to file specific written objections will
bar the aggrieved party from appealing the factual
findings and legal conclusions of the magistrate judge
that are accepted or adopted by the district court, except upon grounds of plain error. See Douglass v.
United Servs. Automobile Ass’n, 79 F.3d 1415, 1417
(5th Cir. 1996).
__/s/ Irma Carrillo Ramirez________________
IRMA CARRILLO RAMIREZ
UNITED STATES MAGISTRATE JUDGE

16a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
LAMONT DEJUAN HIGGS,
Movant,
vs.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)

No. 3:16CV-1759-M
No. 3:13CR-0461-M
(1)

ORDER ACCEPTING FINDINGS AND
RECOMMENDATION OF THE UNITED
STATES MAGISTRATE JUDGE
After reviewing all relevant matters of record in
this case, including the Findings, Conclusions, and
Recommendation of the United States Magistrate
Judge for plain error, I am of the opinion that the
Findings and Conclusions of the Magistrate Judge are
correct and they are accepted as the Findings and
Conclusions of the Court.
For the reasons stated in the Findings, Conclusions, and Recommendation of the United States Magistrate Judge, the motion to vacate is DENIED with
prejudice as barred by the statute of limitations.
In accordance with Fed. R. App. P. 22(b) and 28
U.S.C. § 2253(c) and after considering the record in
this case and the recommendation of the Magistrate

17a
Judge, the Court DENIES the movant a Certificate of
Appeal ability. The Court adopts and incorporates by
reference the Magistrate Judge’s Findings, Conclusions and Recommendation filed in this case in support of its finding that the movant has failed to show
(1) that reasonable jurists would find this Court’s “assessment of the constitutional claims debatable or
wrong,” or (2) that reasonable jurists would find “it
debatable whether the petition states a valid claim of
the denial of a constitutional right” and “debatable
whether [this Court] was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).1
In the event that the movant files a notice of appeal, he must pay the $505.00 appellate filing fee or
submit a motion to proceed in forma pauperis that is
accompanied by a properly signed certificate of inmate
trust account.

1

Rule 11 of the Rules Governing §§ 2254 and 2255 Cases,
as amended effective on December 1, 2009, reads as follows:
(a) Certificate of Appealability. The district court must issue
or deny a certificate of appealability when it enters a final
order adverse to the applicant. Before entering the final order, the court may direct the parties to submit arguments
on whether a certificate should issue. If the court issues a
certificate, the court must state the specific issue or issues
that satisfy the showing required by 28 U.S.C. § 2253(c)(2).
If the court denies a certificate, the parties may not appeal
the denial but may seek a certificate from the court of appeals under Federal Rule of Appellate Procedure 22. A motion to reconsider a denial does not extend the time to appeal.
(b) Time to Appeal. Federal Rule of Appellate Procedure
4(a) governs the time to appeal an order entered under these
rules. A timely notice of appeal must be filed even if the district court issues a certificate of appealability.

18a
SIGNED this 30th day of November, 2017.

_/s/ Barbara M. G. Lynn_
BARBARA M. G. LYNN
CHIEF JUDGE

19a
APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
LAMONT DEJUAN HIGGS,
Movant,
vs.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)

No. 3:16CV-1759-M
No. 3:13CR-0461-M
(1)
Referred
to U.S.
Magistrate
Judge

FINDINGS, CONCLUSIONS, AND
RECOMMENDATION
Pursuant to Special Order 3-251, this habeas case
has been automatically referred for findings, conclusions, and recommendation. Based on the relevant
findings and applicable law, the Motion under 28
U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence
by a Person in Federal Custody (doc. 23), should be
DENIED with prejudice as barred by the statute of
limitations.

20a
I.

BACKGROUND

Lamont DeJuan Higgs (Movant) challenges his
federal conviction and sentence in Cause No. 3:13-CR461-M. The respondent is the United States of America (Government).
Movant was convicted of being a felon in possession of a firearm and possession with intent to distribute a controlled substance in violation of 18 U.S.C.
§§ 922(g)(1), 924(a)(2) and 21 U.S.C. § 841(a)(2),
(b)(1)(d), and by judgment entered on June 19, 2014,
he was sentenced to 151 months’ imprisonment. (See
doc. 35.)1 He did not appeal.
On June 24, 2016, he filed a § 2255 motion
through counsel. (No. 3:16-CV-1759-M, doc. 1.) Counsel was subsequently permitted to withdraw, and Movant filed an amended § 2255 motion, received on July
17, 2017. (Id., doc. 23.) It alleged that the residual
clause of a sentencing guideline that increased his offense level was unconstitutionally vague in light of
Johnson v. United States, 135 S. Ct. 2551 (2015); prior
Texas convictions for delivery of a controlled substance were improperly used to enhance his sentence
under the sentencing guidelines in light of Mathis v.
United States, 136 S. Ct. 2243 (2016); and counsel was
ineffective for failing to object to the grouping of the
counts to determine the offense level. (Id., doc. 23 at
4-7.) The Government filed a response on August 16,
2017, contending that the motion to vacate was untimely. (Id., doc. 29.)

1
Unless otherwise indicated, all document numbers refer to
the docket number assigned in the underlying criminal
action, 3:13-CR-461-M.

21a
II. STATUTE OF LIMITATIONS
Section 2255 of Title 28 “establishes a ‘1-year period of limitation’ within which a federal prisoner may
file a motion to vacate, set aside, or correct his sentence under that section.” Dodd v. United States, 545
U.S. 353, 356 (2005). It states that:
A 1-year period of limitation shall apply to a
motion under this section. The limitation period shall run from the latest of –
(1) the date on which the judgment of
conviction becomes final;
(2) the date on which the impediment
to making a motion created by governmental action in violation of the Constitution or laws of the United States
is removed, if the movant was prevented from making a motion by such
governmental action;
(3) the date on which the right asserted was initially recognized by the
Supreme Court, if that right has been
newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim or claims presented
could have been discovered through
the exercise of due diligence.
28 U.S.C. § 2255(f).

22a
A. Calculation of One-Year Period
With regard to § 2255(f)(1), the judgment became
final on July 3, 2014, when the time to appeal expired.
See Fed. R. App. P. 4(b)(1)(A)(i) (providing for 14-day
period to appeal from judgment); United States v.
Plascencia, 537 F.3d 385, 388 (5th Cir. 2008) (when a
federal prisoner does not appeal a conviction, it becomes final for purposes of § 2255 upon the expiration
of time to file an appeal). He does not allege that government action prevented him from filing a § 2255 petition earlier under § 2255(f)(2). The facts supporting
his claim arose when he was sentenced, so § 2255(f)(4)
does not apply.
Movant cites the Supreme Court’s decision in
Johnson as a basis for his motion. In Johnson, the
Supreme Court held that the imposition of an increased sentenced under the residual clause of the
Armed Career Criminal Act (ACCA), 18 U.S.C.
§ 924(e)(1), (2)(B) (regarding a prior conviction that
“otherwise involves conduct that presents a serious
potential risk of physical injury to another”), violates
the Constitution’s guarantee of due process because
the residual clause is unconstitutionally vague. Johnson, 135 S. Ct. at 2563. The holding of Johnson is retroactively available on collateral review. Welch v.
United States, 136 S.Ct. 1257, 1268 (2016). Section
2255(f)(3) provides that the one-year limitations period runs from “the date on which the right asserted
was initially recognized by the Supreme Court, if that
right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on
collateral review.”
Johnson does not apply to Movant because he was
not sentenced under the ACCA. Movant contends

23a
that the residual clause of a sentencing guideline is
unconstitutional in light of Johnson. Johnson does
not apply to the sentencing guidelines, and the guidelines are not subject to a vagueness challenge under
the Due Process Clause. Beckles v. United States, 137
S.Ct. 886, 895 (2017). Johnson did not announce a
newly recognized right regarding the constitutionality
of the sentencing guidelines, so § 2255(f)(3) does not
apply. See Clayton v. United States, No. 3:16-CV1837-L, 2017 WL 3880723 at *1-2 (N.D. Tex. Aug. 1,
2017), rec. adopted, 2017 WL 3726814 (N.D. Tex. Aug.
30, 2017).
Movant also cites United States v. Mathis, 136 S.
Ct. 2243 (2016), and United States v. Hinkle, 832 F.3d
567 (5th Cir. 2016), in support of his claim regarding
the use of prior drug convictions to enhance his sentence. Mathis did not announce a new rule. See 136
S. Ct. at 2257; see also In re Lott, 838 F.3d 522, 523
(5th Cir. 2016) (per curiam) (denying authorization to
file a successive § 2255 motion that relied on Mathis
because it did not announce a new rule of constitutional law). It therefore cannot form the basis for applying § 2255(f)(3). See also United States v. Taylor,
672 F. App’x 860, 864 (10th Cir. 2016) (“Because
Mathis did not announce a new rule, Mr. Taylor cannot rely on it in a § 2255 petition filed nearly fifteen
years after the judgment in his criminal case became
final.”).
Hinkle was a decision from the Fifth Circuit Court
of Appeals, not the United States Supreme Court.
Section 2255(f)(3) applies only to claims relying on a
rule “newly recognized by the Supreme Court.” Also,
Hinkle applied Mathis on direct appeal, not to § 2255
motions that were otherwise time-barred. See Hinkle,

24a
832 F.3d at 574-77 (vacating the defendant’s sentence
on direct appeal because a prior Texas conviction for
delivery of heroin did not qualify as a controlled substance offense under the career offender provisions).
Section 2255(f)(3) does not apply here. See Washington v. United States, 2017 WL 2930939, *3 (W.D. Tex.
July 7, 2017) (rejecting an argument that Hinkle triggered § 2255(f)(3)).
Because the latest of the dates under § 2255(f) is
the date that Movant’s conviction became final, he had
until July 3, 2015, to file his § 2255 motion. His initial
§ 2255 motion was filed on June 24, 2016, so it is untimely in the absence of equitable tolling.
B. Equitable Tolling
“[T]he statute of limitations in § 2255 may be equitably tolled in ‘rare and exceptional circumstances.’”
United States v. Patterson, 211 F.3d 927, 930 (5th Cir.
2000). “The doctrine of equitable tolling preserves a
[party’s] claims when strict application of the statute
of limitations would be inequitable.” Davis v. Johnson,
158 F.3d 806, 810 (5th Cir. 1998) (quoting Lambert v.
United States, 44 F.3d 296, 298 (5th Cir. 1995)). It
“applies principally where [one party] is actively misled by the [other party] about the cause of action or is
prevented in some extraordinary way from asserting
his rights.” See Coleman v. Johnson, 184 F.3d 398, 402
(5th Cir. 1999) (quoting Rashidi v. American President Lines, 96 F.3d 124, 128 (5th Cir. 1996)). In the
context of a habeas petition filed by a state prisoner,
the Supreme Court has stated that a habeas petitioner is entitled to equitable tolling only if he shows
that: 1) he has been pursuing his rights diligently, and
2) some extraordinary circumstance prevented a
timely filing. Holland v. Florida, 130 S.Ct. 2549, 2562

25a
(2010), citing Pace v. DiGuglielmo, 544 U.S. 408, 418
(2005). “[E]quity is not intended for those who sleep
on their rights.” Covey v. Arkansas River Co., 865 F.2d
660, 662 (5th Cir. 1989). Furthermore, Movant bears
the burden to show entitlement to equitable tolling.
Phillips v. Donnelly, 223 F.3d 797, 797 (5th Cir. 2000)
(per curiam). Courts must examine each case in order
to determine if there are sufficient exceptional circumstances that warrant equitable tolling. Fisher v.
Johnson, 174 F.3d 710, 713 (5th Cir. 1999).
Movant has not demonstrated that he diligently
pursued his rights or that extraordinary circumstances prevented him from filing his motion to vacate
earlier so as to warrant equitable tolling. Nor does he
assert any other basis for equitable tolling. His § 2255
motion is untimely.
III. RECOMMENDATION
The Motion to Vacate, Set Aside, or Correct Sentence pursuant to 28 U.S.C. § 2255 should be DENIED with prejudice as barred by the statute of limitations.
SIGNED on this 9th day of November, 2017.

___/s/ Irma Carrillo Ramirez______________
IRMA CARRILLO RAMIREZ
UNITED STATES MAGISTRATE JUDGE

26a
INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
A copy of these findings, conclusions and recommendation shall be served on all parties in the manner provided by law. Any party who objects to any
part of these findings, conclusions and recommendation must file specific written objections within 14
days after being served with a copy. See 28 U.S.C.
§ 636(b)(1); Fed. R. Civ. P. 72(b). In order to be specific, an objection must identify the specific finding or
recommendation to which objection is made, state the
basis for the objection, and specify the place in the
magistrate judge’s findings, conclusions and recommendation where the disputed determination is
found. An objection that merely incorporates by reference or refers to the briefing before the magistrate
judge is not specific. Failure to file specific written
objections will bar the aggrieved party from appealing
the factual findings and legal conclusions of the magistrate judge that are accepted or adopted by the district court, except upon grounds of plain error. See
Douglass v. United Servs. Automobile Ass’n, 79 F.3d
1415, 1417 (5th Cir. 1996).
___/s/ Irma Carrillo Ramirez_______________
IRMA CARRILLO RAMIREZ
UNITED STATES MAGISTRATE JUDGE

27a
APPENDIX H
STATUTORY PROVISIONS INVOLVED
18 U.S.C. § 922. Unlawful acts
(g) It shall be unlawful for any person-(1) who has been convicted in any court of, a crime
punishable by imprisonment for a term exceeding one
year;
(2) who is a fugitive from justice;
(3) who is an unlawful user of or addicted to any
controlled substance (as defined in section 102 of the
Controlled Substances Act (21 U.S.C. 802));
(4) who has been adjudicated as a mental defective
or who has been committed to a mental institution;
(5) who, being an alien-(A) is illegally or unlawfully in the United States;
or
(B) except as provided in subsection (y)(2), has
been admitted to the United States under a nonimmigrant visa (as that term is defined in section
101(a)(26) of the Immigration and Nationality Act (8
U.S.C. 1101(a)(26)));
(6) who has been discharged from the Armed
Forces under dishonorable conditions;
(7) who, having been a citizen of the United
States, has renounced his citizenship;

28a
(8) who is subject to a court order that-(A) was issued after a hearing of which such person received actual notice, and at which such person
had an opportunity to participate;
(B) restrains such person from harassing, stalking, or threatening an intimate partner of such person
or child of such intimate partner or person, or engaging in other conduct that would place an intimate
partner in reasonable fear of bodily injury to the partner or child; and
(C)(i) includes a finding that such person represents a credible threat to the physical safety of such
intimate partner or child; or
(ii) by its terms explicitly prohibits the use, attempted use, or threatened use of physical force
against such intimate partner or child that would reasonably be expected to cause bodily injury; or
(9) who has been convicted in any court of a misdemeanor crime of domestic violence,
to ship or transport in interstate or foreign commerce,
or possess in or affecting commerce, any firearm or
ammunition; or to receive any firearm or ammunition
which has been shipped or transported in interstate
or foreign commerce.
*

*

*

29a
21 U.S.C. § 841. Prohibited acts
(a) Unlawful acts
Except as authorized by this subchapter, it shall
be unlawful for any person knowingly or intentionally-(1) to manufacture, distribute, or dispense, or possess with intent to manufacture, distribute, or dispense, a controlled substance; or
(2) to create, distribute, or dispense, or possess
with intent to distribute or dispense, a counterfeit
substance.
*

*

*

28 U.S.C. § 2241. Power to grant writ.
(a) Writs of habeas corpus may be granted by the
Supreme Court, any justice thereof, the district courts
and any circuit judge within their respective jurisdictions. The order of a circuit judge shall be entered in
the records of the district court of the district wherein
the restraint complained of is had.
(b) The Supreme Court, any justice thereof, and
any circuit judge may decline to entertain an application for a writ of habeas corpus and may transfer the
application for hearing and determination to the district court having jurisdiction to entertain it.
(c) The writ of habeas corpus shall not extend to a
prisoner unless--

30a
(1) He is in custody under or by color of the authority of the United States or is committed for trial
before some court thereof; or
(2) He is in custody for an act done or omitted in
pursuance of an Act of Congress, or an order, process,
judgment or decree of a court or judge of the United
States; or
(3) He is in custody in violation of the Constitution
or laws or treaties of the United States; or
(4) He, being a citizen of a foreign state and domiciled therein is in custody for an act done or omitted
under any alleged right, title, authority, privilege,
protection, or exemption claimed under the commission, order or sanction of any foreign state, or under
color thereof, the validity and effect of which depend
upon the law of nations; or
(5) It is necessary to bring him into court to testify
or for trial.
(d) Where an application for a writ of habeas corpus is made by a person in custody under the judgment and sentence of a State court of a State which
contains two or more Federal judicial districts, the application may be filed in the district court for the district wherein such person is in custody or in the district court for the district within which the State court
was held which convicted and sentenced him and each
of such district courts shall have concurrent jurisdiction to entertain the application. The district court for
the district wherein such an application is filed in the
exercise of its discretion and in furtherance of justice
may transfer the application to the other district court
for hearing and determination.

31a
(e)(1) No court, justice, or judge shall have jurisdiction to hear or consider an application for a writ of
habeas corpus filed by or on behalf of an alien detained by the United States who has been determined
by the United States to have been properly detained
as an enemy combatant or is awaiting such determination.
(2) Except as provided in paragraphs (2) and (3) of
section 1005(e) of the Detainee Treatment Act of 2005
(10 U.S.C. 801 note), no court, justice, or judge shall
have jurisdiction to hear or consider any other action
against the United States or its agents relating to any
aspect of the detention, transfer, treatment, trial, or
conditions of confinement of an alien who is or was detained by the United States and has been determined
by the United States to have been properly detained
as an enemy combatant or is awaiting such determination.
*

*

*

28 U.S.C. § 2255. Federal custody; remedies on
motion attacking sentence.
(a) A prisoner in custody under sentence of a court
established by Act of Congress claiming the right to be
released upon the ground that the sentence was imposed in violation of the Constitution or laws of the
United States, or that the court was without jurisdiction to impose such sentence, or that the sentence was
in excess of the maximum authorized by law, or is otherwise subject to collateral attack, may move the court
which imposed the sentence to vacate, set aside or correct the sentence.

32a
(b) Unless the motion and the files and records of
the case conclusively show that the prisoner is entitled to no relief, the court shall cause notice thereof to
be served upon the United States attorney, grant a
prompt hearing thereon, determine the issues and
make findings of fact and conclusions of law with respect thereto. If the court finds that the judgment was
rendered without jurisdiction, or that the sentence imposed was not authorized by law or otherwise open to
collateral attack, or that there has been such a denial
or infringement of the constitutional rights of the prisoner as to render the judgment vulnerable to collateral attack, the court shall vacate and set the judgment aside and shall discharge the prisoner or resentence him or grant a new trial or correct the sentence
as may appear appropriate.
(c) A court may entertain and determine such motion without requiring the production of the prisoner
at the hearing.
(d) An appeal may be taken to the court of appeals
from the order entered on the motion as from a final
judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in
behalf of a prisoner who is authorized to apply for relief by motion pursuant to this section, shall not be
entertained if it appears that the applicant has failed
to apply for relief, by motion, to the court which sentenced him, or that such court has denied him relief,
unless it also appears that the remedy by motion is
inadequate or ineffective to test the legality of his detention.

33a
(f) A 1-year period of limitation shall apply to a
motion under this section. The limitation period shall
run from the latest of-(1) the date on which the judgment of conviction
becomes final;
(2) the date on which the impediment to making a
motion created by governmental action in violation of
the Constitution or laws of the United States is removed, if the movant was prevented from making a
motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme Court, if that right
has been newly recognized by the Supreme Court and
made retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the
claim or claims presented could have been discovered
through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled Substances Act, in all proceedings brought under this section, and any subsequent proceedings on
review, the court may appoint counsel, except as provided by a rule promulgated by the Supreme Court
pursuant to statutory authority. Appointment of counsel under this section shall be governed by section
3006A of title 18.
(h) A second or successive motion must be certified
as provided in section 2244 by a panel of the appropriate court of appeals to contain--

34a
(1) newly discovered evidence that, if proven and
viewed in light of the evidence as a whole, would be
sufficient to establish by clear and convincing evidence that no reasonable factfinder would have found
the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review by the Supreme
Court, that was previously unavailable.

